         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Hotline Report




       Review of Hotline Complaint on
       Employee Granted Full-Time
       Work-at-Home Privilege
       Report No. 10-P-0002

       October 7, 2009
Report Contributors:                           Ben Beeson
                                               Dan Cox
                                               Eric Lewis




Abbreviations

EPA          U.S. Environmental Protection Agency
NETI         National Enforcement Training Institute
OARM         Office of Administration and Resources Management
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
                       U.S. Environmental Protection Agency                                               10-P-0002
                                                                                                     October 7, 2009
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review            Review of Hotline Complaint on Employee
We conducted this review in       Granted Full-Time Work-at-Home Privilege
response to an anonymous
Hotline complaint. The             What We Found
complaint alleged that the
U. S. Environmental               We found an unauthorized, full-time work-at-home arrangement that has existed
Protection Agency (EPA)           for 9 years and allows a NETI employee to work from home in Ohio instead of an
inappropriately granted full-     office in Washington, DC. The employee and position were originally located in
time work-at-home status to       the Washington area and the employee later moved as the result of a spouse
an employee so that employee      transfer. In our opinion, NETI’s actions are for the benefit of a single employee
could move outside of the         as opposed to being primarily in the interest of the government, and this action
Washington, DC, area.             was not equitably provided within NETI. EPA has no established or consistent
                                  policy, procedure, or criteria for granting full-time work-at-home privilege.
Background                        Full-time work-at-home opportunity appears to be preferentially available to only
                                  a few employees. Neither OARM nor NETI has any written documentation
EPA’s Office of                   showing the government interest in or appropriateness of making this
Administration and Resources      arrangement, or that senior OARM officials approved this action.
Management (OARM)
provides national leadership,     Office of Human Resources personnel (the Associate Deputy Director of Program
policy, and management for        Management & Communications, and the Agency Telework Coordinator) stated
support functions such as         that EPA became aware of similar arrangements due to research it performed for
human resources management.       an unrelated court case. OARM raised concerns about equity in such
The Office of Enforcement         arrangements, and believes this must be brought under control. To date, OARM
and Compliance Assurance’s        has not corrected this situation.
National Enforcement
Training Institute (NETI) is       What We Recommend
responsible for training
personnel in the enforcement      We recommend that the Deputy Administrator assign responsibility for
and compliance of the nation's    authorizing all non-OARM duty station changes to the Assistant Administrator for
environmental laws, and is the    OARM. We further recommend that the Assistant Administrator for
office where the subject of the   Administration and Resources Management establish and implement Agency
complaint was employed.           policy for all EPA employees that clearly articulates the process and procedures
                                  for changing an employee’s duty station to a location geographically separate from
For further information,          the position of record. We also recommend that the Agency quickly bring into
contact our Office of             compliance with the new policy all existing full-time work at a duty station
Congressional, Public Affairs     separate from the position of record. The Agency generally agreed with these
and Management at                 recommendations and estimated all of the recommendations will be implemented
(202) 566-2391.
                                  by July 2010.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20091007-10-P-0002.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         October 7, 2009

MEMORANDUM

SUBJECT:               Review of Hotline Complaint on Employee Granted Full-Time
                       Work-at-Home Privilege
                       Report No. 10-P-0002


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Scott C. Fulton
                       Acting Deputy Administrator

                       Craig E. Hooks
                       Assistant Administrator for Administration and Resources Management


This is a final report on the subject audit conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report represents the opinion of the OIG
and does not necessarily represent the final EPA position. Final determination on matters in this
report will be made by EPA managers in accordance with established audit resolution
procedures. The Office of the Administrator and the Office of Administration and Resources
Management provided comments to our draft audit report on August 19, 2009. The OIG
evaluated these comments and, where appropriate, has made necessary changes in this report.
We have included the response and the OIG’s evaluation in Appendix A.

The estimated cost of this project – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time is – $161,118.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a formal corrective action plan for agreed
upon actions, including milestone dates. We have no objection to the further release of this report
to the public. This report will be available at http://www.epa.gov/oig.
Should you have any questions, please contact Eric Lewis, Director, Special Reviews, at
202-566-2664 or lewis.eric@epa.gov.
Review of Hotline Complaint on Employee                                                                                        10-P-0002
Granted Full-Time Work-at-Home Privilege



                                      Table of Contents
   Purpose........................................................................................................................    1

   Background .................................................................................................................       1

   Scope and Methodology.............................................................................................                2

   Results of Review .......................................................................................................          3

           NETI Rationale for the Decision ...........................................................................               3
           Cost and Equity ....................................................................................................      5
           OARM Concerns ..................................................................................................          5

   Conclusion...................................................................................................................      5

   Recommendations ......................................................................................................             6

   Summary of Agency Response and OIG Evaluation ...............................................                                     6

   Status of Recommendations and Potential Monetary Benefits..............................                                           7



Appendices
   A       Agency Response to Draft Report....................................................................                       8

   B       Distribution .........................................................................................................    11
                                                                                          10-P-0002


Purpose
The OIG reviewed an anonymous Hotline allegation that the U.S. Environmental Protection
Agency (EPA) inappropriately granted full-time work-at-home status to a National Enforcement
Training Institute (NETI) employee. This employee moved to Ohio from the Washington, DC,
area after the spouse received a job transfer, and NETI wanted to retain the position. The
complaint also alleged that the work-at-home arrangement created inappropriate travel costs to
the government and other morale problems in the office.

Background
The Office of Administration and Resources Management (OARM) provides national leadership,
policy, and management of many essential support functions for the Agency, including human
resources management. NETI, within the Office of Enforcement and Compliance Assurance
(OECA), is responsible for training federal, State, local, and tribal lawyers, inspectors, civil and
criminal investigators, and technical experts in the enforcement and compliance of the Nation's
environmental laws.

OARM’s Team Leader, Compensation & Work-Life Team, in the Human Resources Policy
Division, stated there are two official policies that allow an individual to work at home – the
Alternative Workspace Policy and EPA Flexiplace Policy. In addition, EPA’s Conduct and
Discipline Policy requires that the Agency treat all employees equitably. OARM stated the
Agency also has two unofficial/unauthorized practices where individuals work at home – the
Work Designation Separate from the Position of Record practice and Remote Reporting practice.
Details on these policies and practices follow.

       Alternative Work Space Policy. In January 1999, the OARM Assistant Administrator
       created the Uniform Criteria and Procedures for Requesting and Assigning Alternative
       Work Space Program. The Program addresses employee requests to work at a location
       other than the officially assigned work location solely because of claims of adverse health
       effects caused or aggravated by some condition associated with the official work site.

       EPA Flexiplace Policy. EPA Flexiplace Policy 3180, December 1997, addresses
       medical, regular, and episodic flexiplace. The Policy requires the employee to
       periodically be present in the office (commute to the main office regularly) to comply
       with the policy.

       Conduct and Discipline Policy. EPA has to ensure that it treats all employees equitably.
       In EPA Order 3120.1, Conduct and Discipline, September 1985,

               The Environmental Protection Agency requires all its employees to adhere
               to the Agency Regulations on Employee Responsibilities and Conduct (40
               CFR, Part 3) and to maintain levels of behavior and efficiency that
               conform to the highest ethical standards and promote the interest of EPA
               and the Federal Service. Likewise, all managers and supervisors are
               responsible for maintaining a climate of constructive discipline within


                                                 1
                                                                                              10-P-0002


                their organizations by good example and practice, clear instruction, fair
                and equal treatment of all employees, and firm and decisive leadership.

        Work Designation Separate from the Position of Record Practice. Although there is
        no Agency policy to establish a duty station separate from the position of record, OARM
        personnel in the Office of Human Resources1 stated the unauthorized practice does occur.
        OARM thus described a situation where the position of record stays the same, the
        employee moves to a different geographical location, and the Agency initiates a
        personnel action that changes the employee’s locality pay entitlement. It may or may not
        entail reimbursable travel expenses. OARM had started to develop, but did not complete,
        guidance to cover this situation. The unissued guidance did not provide direction on
        what the Agency administrative coordination process should be to change an employee’s
        duty station to a place other than the position of record. The unissued guidance did not
        address establishing the employee’s home as a duty station. However, the draft guidance
        would require that the OARM Assistant Administrator approve all such requests.

        Remote Reporting Practice. Although there is no authorized remote reporting policy,
        OARM personnel stated this practice also occurs. The Associate Deputy Director of
        Program Management & Communications described remote reporting as when a worker
        is not in the office or with the first line supervisor (full-time). The Team Leader,
        Compensation & Work-Life Team, added that remote reporting means the employee
        performs all or most duties at a location a considerable distance from the employee's
        official worksite/duty station and position of record. There is no official documentation
        for this arrangement or duty station change. This arrangement is usually a personal
        accommodation the Agency makes for the employee's convenience and there is no
        official personnel status change associated with this arrangement. Consequently,
        transportation expenses, either permanent or temporary, are not permissible in this
        circumstance. The Associate Deputy Director of Program Management &
        Communications said remote reporting has crept into existence over the past 20 years.

Scope and Methodology
We conducted our review from January 27 to July 29, 2009. We conducted this evaluation in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the evaluation to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our evaluation objectives. We believe
the evidence obtained provides a reasonable basis for our findings and conclusions. Generally
accepted government auditing standards require that auditors obtain an understanding of internal
controls significant to the audit objectives and consider whether specific internal control
procedures have been properly designed and placed in operation.

We focused on the NETI main office located in Washington, DC. We interviewed all program
staff and managers from the NETI main office. We obtained and reviewed public law, Office of


1
 They were the Associate Deputy Director of Program Management & Communications, the Agency Telework
Coordinator, and the Team Leader, Compensation & Work-Life Team.


                                                   2
                                                                                      10-P-0002


Personnel Management and EPA policies pertaining to work arrangements, locality pay, and
travel compensation. These included but were not limited to:

   •   Title 5 U.S. Code part 531 Section 605
   •   Title 5 U. S. Code Chapter 61
   •   Public Law 106-346
   •   Public Law 105-277
   •   Public Law 104-52
   •   EPA Flexiplace Policy 3180
   •   A Guide to Telework in the Federal Government
   •   The GSA (General Services Administration)Telework Portal
   •   Title 5 U. S. Code Section 5702 Per Diem, Employee Travel and Official Business
   •   Official Worksite and Travel Related Policies
   •   Title 5 U. S. Code Sections 2301 and 2302
   •   Uniform Criteria and Procedures for Requesting and Assigning Alternative Work Space
   •   Alternative Work space – Frequently Asked Questions

We also examined the subject employee’s expense vouchers provided by NETI to review the
miscellaneous and travel expenses that were reimbursed by NETI. In addition, we interviewed
the OARM Office of Human Resources personnel including the Director of Human Resources
Policy Division; the Team Leader, Compensation & Work–Life Team; the Agency Telework
Coordinator; and the Associate Deputy Director of Program Management & Communications on
personnel and pay policies.

Results of Review
We found an approximately 9-year-old unauthorized full-time work-at-home arrangement that
allows a NETI employee to work from home in Ohio for an office in Washington, DC. This
arrangement is not supported by policy because EPA has no formal policy for work
arrangements where the duty station location is separate from the position of record. The
employee and position were originally located in the Washington area but the employee moved
after the spouse received a job transfer. Neither OARM nor NETI have any written
documentation showing the government interest or appropriateness of making this arrangement,
or that senior OARM officials approved this action. The Agency incurred no permanent change
of station costs when the Agency changed the employee's duty station location and locality pay
to the home in Ohio. NETI requested and OARM approved changing the position from part time
(64 hours per pay period) to full time (80 hours per pay period) concurrent with the move, which
increased the total compensation to the employee.

       NETI Rationale for the Decision

       In providing its rationale for allowing the subject arrangement, the NETI Deputy Director
       told us that the employee had advised management that the employee would have to
       resign because the spouse had received a job transfer to Ohio. The NETI Deputy
       Director noted there was an Agency hiring freeze at the time, so the position would not



                                               3
                                                                                10-P-0002


be filled. The NETI Deputy Director said the personnel loss would have resulted in a net
loss of capability. The NETI Deputy Director also wanted to retain the employee
because the employee was considered to be very valuable. As such, the then NETI
Director tasked the Deputy Director to find a way to keep the employee.

The NETI Deputy Director said she worked with the OECA Human Resources contact,
who in turn worked with OARM on the solution. The Deputy Director said the now-
retired OARM staff advised that changing the duty location via the Standard Form 52
would be appropriate and all that was needed to make the solution complete. We have
not found any corroborating evidence to verify any conversation between OARM and
NETI management on this topic. Based on the OARM advice NETI stated it received,
the NETI Deputy Director said an offer was made to the employee, who accepted.

There is no policy to authorize the action taken. Further, we found documentation
justifying the situation reviewed to be lacking. In particular, we found no documentation
showing that:

   •   A senior OARM official approved the decision and considered the effects on
       employee morale and the public’s perception of EPA.
   •   NETI based the decision on policy applicable to all EPA employees.
   •   This particular job was mission critical.
   •   Employees with this skill-set were difficult to replace.
   •   Existing NETI employees could not have absorbed these functions.
   •   The action benefited the government.
   •   The position description and grade level remained accurate for the duties being
       performed at the new work location.

However, the NETI Deputy Director stated they tried to find the employee a job in
another agency, until they decided to change the duty station to the new home. This
creates the impression that NETI’s actions were for the benefit of the individual
employee rather than the Agency.

The OARM Associate Deputy Director of Program Management & Communications and
the Agency Telework Coordinator stated that the Agency has a culture that continues to
make similar arrangements outside of policy, with little or no justification. Further, in
some cases, these arrangements were made without appropriately changing the
employee’s duty station. We believe these arrangements raise equity concerns because
the Agency has not developed policy to determine how and when employees are eligible
for this arrangement.

The NETI Deputy Director said the arrangement made in this case is available to other
NETI employees if the employee and the work are well suited. However, NETI has not
communicated this option to employees or made a similar offer. Further, the NETI
Deputy Director did not have any documented criteria to administer the grant of
privilege.



                                        4
                                                                                        10-P-0002


       Cost and Equity

       The employee’s pay status changed from part time to full time as part of the change in
       duty station. Although the pay rate for Ohio is lower, the employee received a 13.46
       percent pay increase because of the change in pay status. In addition, the Agency
       incurred travel costs for the subject employee to travel to and from the main office in
       Washington, DC, that amounted to $17,458 from September 2000 to October 2008.
       Consequently, the Agency paid significantly more for the employee’s services after the
       change in duty station.

       OARM Concerns

       The Associate Deputy Director of Program Management & Communications, and the
       Agency Telework Coordinator told us they knew of other examples within EPA where
       managers had shown a willingness to make similar arrangements, and indicated there
       may be other existing arrangements they have not discovered. From the perspective of
       the Associate Deputy Director of Program Management & Communications, and the
       Agency Telework Coordinator, these arrangements exist outside of policy and the
       justifications for the arrangements were either lacking or weak. The Associate Deputy
       Director of Program Management & Communications raised concerns about equity in the
       opportunity to participate in such little known arrangements and reiterated such
       arrangements made outside of policy and with little or no justification represents a real
       and present risk for future litigation. The Associate Deputy Director of Program
       Management & Communications stated long-term work-at-home arrangements may at
       times be appropriate and an appropriate solution would be an Agency-wide policy to
       address the EPA position on all work arrangements where the duty station and position of
       record are different. A previous draft of policy attempted to address the Agency
       determination of employee's official duty station, application, and approval. The draft
       policy also addressed justifications, review, and formal approval. In our opinion, the
       Agency should establish administrative policy to provide criteria for justification and a
       centralized process for review and approval to safeguard the government's and the
       individual's interests.

Conclusion
In our opinion, NETI’s actions are for the benefit of a single employee as opposed to being
primarily in the interest of the government. EPA has no established or consistent policy,
procedure, or criteria; the opportunity appears available to only a few employees; and there is no
justification or objective review indicating that the action was in the government’s interest. EPA
should establish appropriate Agency policy and procedures that are consistently and fairly
applied. This policy should include eligibility criteria for positions and personnel, records
management requirements, periodic review and reauthorization, verification of correct pay rate
(locality and grade) and specific approvals required from initial submission to final approval to
ensure equity. Existing arrangements outside of current policy, such as the NETI allegation,
should be objectively assessed and modified or terminated as necessary.




                                                5
                                                                                       10-P-0002


Recommendations
We recommend that the Deputy Administrator:

   1.   Assign responsibility for authorizing all non-OARM geographically separate duty
        station changes to the Assistant Administrator for OARM.

We recommend that the Assistant Administrator for Administration and Resources Management:

   2a. Establish and implement Agency policy for all EPA employees that clearly articulates
       the process and procedures for changing an employee’s duty station to a location
       geographically separate from the position of record. This policy should include
       eligibility criteria for positions and personnel, records management requirements,
       periodic review and reauthorization, verification of correct pay rate (locality and grade)
       and specific approvals required from initial submission to final approval to ensure
       equity. The policy should require the Assistant Administrator for OARM to be the final
       decision authority for all geographically separate duty station locations authorizations
       except those duty station location changes initiated within OARM.

   2b. Identify and review all existing arrangements of full-time work-at-duty-station separate
       from the position of record, including the situation that was the subject of this review,
       and bring each of these arrangements into compliance with implemented EPA policy.

Summary of Agency Responses and OIG Evaluation
The Agency generally concurred with the recommendations and offered other insights into the
report. On Recommendation 1 the Agency concurred that a central approval authority for all
work at home arrangements was necessary but could not decide at the time where it should be.
The Agency can provide its decision and rationale in the 90 day response to this report. The
Agency concurred with Recommendation 2a and has set January 2010 as a target for developing
the policy. The Agency concurred with Recommendation 2b and has stated that a review of the
existing arrangements should be completed 6 months after the new policy is implemented. The
Agency requested that we define the use of “manager” when referring to OARM personnel we
interviewed in the report. We removed the term “manager” and inserted the titles of the
personnel interviewed. The Agency was concerned that using a number for the other
arrangements was inappropriate because we had not verified the supporting data. We did not
validate the number of existing arrangements as we believed the Agency should do so after
developing a policy. We changed the report to refer to them as other arrangements.




                                               6
                                                                                                                                           10-P-0002



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1        Action Official             Date      Amount      Amount

     1        6     Assign responsibility for authorizing all non-OARM        O         Deputy Administrator
                    geographically separate duty station changes to
                    the Assistant Administrator for OARM.

    2a        6     Establish and implement Agency policy for all EPA         O       Assistant Administrator for   01/31/2010
                    employees that clearly articulates the process and                   Administration and
                    procedures for changing an employee’s duty                         Resources Management
                    station to a location geographically separate from
                    the position of record. This policy should include
                    eligibility criteria for positions and personnel,
                    records management requirements, periodic review
                    and reauthorization, verification of correct pay rate
                    (locality and grade) and specific approvals required
                    from initial submission to final approval to ensure
                    equity. The policy should require the Assistant
                    Administrator for OARM to be the final decision
                    authority for all geographically separate duty
                    station locations authorizations except those duty
                    station location changes initiated within OARM.

    2b        6     Identify and review all existing arrangements of          O       Assistant Administrator for   07/31/2010
                    full-time work-at-duty-station separate from the                     Administration and
                    position of record, including the situation that was               Resources Management
                    the subject of this review, and bring each of these
                    arrangements into compliance with implemented
                    EPA policy.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  7
                                                                                       10-P-0002


                                                                                   Appendix A

                  Agency Response to Draft Report

                                        August 19, 2009


MEMORANDUM

SUBJECT:      Office of Inspector General Draft Hotline Report: Review of Hotline Complaint
              on Employee Granted Full-time Work-at-Home Privilege
              Project No. OPE-FY09-004 Hotline 2008-096, July 30, 2009

FROM:         Scott C. Fulton
              Acting Deputy Administrator, Environmental Protection Agency

              Cynthia Giles
              Assistant Administrator for Enforcement and Compliance Assurance

              Craig E. Hooks
              Assistant Administrator for Administration and Resources Management

TO:           Bill A. Roderick
              Acting Inspector General
              Office of Inspector General

       Thank you for the opportunity to respond to the concerns that you have raised in the
above-referenced draft Hotline Report.

       As a result of an anonymous hotline complaint the Office of the Inspector General (OIG)
conducted a review to determine whether an EPA employee was inappropriately granted full-
time work at home status. In the draft report, the OIG reviewed a situation in which the Agency
authorized a change of duty location for an OECA, National Enforcement Training Institute
(NETI) employee previously assigned to Washington, DC and subsequently allowed to work
from the employee’s home residence in Ohio.

        The OIG found that at the time of this change in duty location there was no policy in
place that would have governed this action and that documentation justifying the approval was
lacking. OIG concluded that this change of duty location was “for the benefit of a single
employee as opposed to being primarily in the interest of the government,” and that this action
“was not equitably provided within NETI.” The OIG appropriately points out that EPA does not
yet have a final policy in place that would govern this type of personnel action.

       The OIG recommended two (2) actions to address the concerns that were raised:



                                               8
                                                                                         10-P-0002




OIG Recommendations and EPA Response

Recommendation 1: That the Deputy Administrator assign responsibility for authorizing
all non-OARM duty station changes to the Assistant Administrator for OARM.

We agree that the process for authorizing all duty station changes needs to be one that assures
consistency and equity in application. Operationally this calls for some type of central review
point that will assure that established criteria are met and approval/disapproval decisions made
consistently. We believe, however, that there may be a variety of review and approval
mechanisms that achieve efficient and effective results, including having all such decisions made
by the Assistant Administrator for OARM. EPA will address this issue when developing a final
Agency policy regarding duty station changes and the OIG will have an opportunity to review
and comment on the Agency’s proposal.

Recommendation 2a: That the Assistant Administrator for OARM establish and
implement Agency policy that clearly articulates the process and procedures for changing
an employee’s duty station to a location geographically separate from the position of record
for all EPA employees.

Response: We agree with the OIG’s conclusion that the Agency does not currently have a policy
that clearly articulates the process and procedures for changing an employee’s duty station to a
geographic location separate from the employee’s organization. EPA has been working on
developing such a policy and agrees that OARM will have the lead for completion of this task.
Because there remains a need for considerable cross-region and program office collaboration to
finalize such a policy, we are setting a target date of January, 2010 for issuance of the final
policy.

Recommendation 2b: That the Assistant Administrator for OARM identify and review all
existing arrangements of full-time work at a duty station separate from the position of
record, including the situation that was the subject of this review, and bring each of these
arrangements into compliance with the implemented EPA policy.

Response: We agree with this recommendation. The Agency will identify and review each
situation where employees work at a duty station separate from the position of record to
determine the most appropriate next steps, working to bring each case into compliance with the
policy referenced in our answer to 2a above. We are setting a target date of 6 months after final
promulgation of the new policy for completion of this review.

Additional Comments on the Draft Report
We appreciate and encourage the OIG staff to reach out to EPA employees and gather data that
are relevant to reports such as this. We count on the integrity of the OIG to assure that the
information they choose to use is accurate and verifiable and that the sources of their information
are credible. We would note that it would be helpful to clearly define the term “manager” or
“management” when presenting interview responses.



                                                 9
                                                                                        10-P-0002


Also, the reference in the draft report to the existence of “54 similar arrangements” reported by
”OARM management” and the note that ”these arrangements exist outside of policy and the
justifications for the arrangements were either lacking or weak” could be erroneous. The draft
report does not define or describe these “similar arrangements.” Further, OARM management is
not aware of 54 arrangements similar to the one referenced in the draft report and is concerned
that this information may be inaccurate.

        Again, thank you for providing the opportunity to review and respond to this draft report.
If you have any questions, please contact either myself or Susan Hazen. We can both be reached
at 202-564-4600.


cc:    Director NETI: Mail Code 2235A
       OECA Audit Liaison: Mail Code 2201A
       OARM Audit Liaison: Mail Code 3102A




                                                10
                                                                                 10-P-0002


                                                                             Appendix B

                                   Distribution
Office of the Administrator
Acting Deputy Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Enforcement and Compliance Assurance
Director, National Enforcement Training Institute
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Acting Inspector General




                                            11
